No. 19-864

 

 

IN THE

Supreme Court of the United States

BRADLEY BEERS,

Petitioner,
v.

WILLIAM P. BARR, ATTORNEY GENERAL OF THE UNITED
STATES OF AMERICA, et al.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

SUPPLEMENTAL BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
792 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 3, 2020.

i)

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

   
